                                        CLOSEOUT OF M-91080035




            This case was brouqht to OIG attention by the NSF Program Director
            for the                                             Program   (the
                                                              . During a
                       !
                       i
                       t
                       e    visit to

            had already been transferred to




                      -                                                   -
                                                            for the
                                                   Program.   The proposal was
             reviewed in accordance with the criteria established for ~ r o ~ o s a l s
             submitted pursuant to this program, which among other things,
             included the positive impact t h e instrument would have o n
                         research capabilities and the concomitant educational
!   !   !   %                that would be senerated throuqh the multi-user
                                                           .

             equipment.    Our review disclosed that (1) the faculty member
             joining           University had resigned his position at
             one month before NSF awarded its grant but did not inform NSF; (2)
             the grantee university had purchased the multi-user instrument
             almost four months before the effective date of NSF1s award, which
             exceeds the allowed 90-day advance purchase period; ( 3 ) the grantee
            university transferred the same instrument to its former faculty
            member's new university one month after purchase, which violates
             the shared-use condition; and ( 4 ) the grantee university was
             seeking approval from NSF to transfer its departmental instrument
             after the actual transfer had occurred rather than before transfer.
            Since the conditions of NSF1s multi-user research instrumentation
            program were not met, the NSF
            requested and received from
            reimbursement of NSF funds involved in this award in the amount of
                         This case was reported in OIG Semiannual Report No. 6
                        We now consider this matter closed.            I


                                                     Concurrence :

                                      9/1,/5,--
                                                    Dy4        -.


            James d.ywolenik                         Philip L. Sunshine
            Assistant Inspector General              counsel to Inspector General
              for Oversight


            cc:   Inspector General
